         Office of Inspector General




September 27, 2006

MICHAEL J. DALEY
ACTING VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT: Management Advisory – Delivery and Retail Standard Operating
         Procedures – Pacific Area (Report Number DR-MA-06-002)

This report presents the results of our review of the implementation of Delivery and
Retail Standard Operating Procedures (SOP) in the Pacific Area (Project Number
06XG016DR006). Our overall objective was to assess implementation of Delivery and
Retail SOP in the Pacific Area. This is one in a series of reports on Delivery and Retail
Operations issued under the Value Proposition Agreement between the Vice President,
Delivery and Retail, and the U.S. Postal Service Office of Inspector General Delivery
and Retail directorate. The information in this report will be included in a nationwide
capping report assessing implementation of Delivery and Retail SOP.

Pacific Area officials implemented the Delivery and Retail SOP for city and rural delivery
and Function 4 (customer service) operations. Implementation included training
supervisors and managers, developing action steps for “vital few” units, and outlining
future plans to complete remaining reviews and certifications by the end of fiscal
year 2006. Officials also certified delivery and retail units under Morning SOP and Rural
Delivery SOP and conducted Function 4 reviews. Based on our review of the city and
rural delivery and Function 4 SOP, the Pacific Area implemented each component of
the SOP. However, additional emphasis was needed to improve Integrated Operating
Plan (IOP), Delivery Point Sequence (DPS), and rural delivery. Specifically, area
officials did not validate that plant and delivery unit personnel updated their IOP to
ensure consistent mail availability prior to carrier arrival and DPS percentage was below
the national average in FY 2005. In rural delivery, the area had difficulty retaining
Replacement Carrier Associates (RCA) for rural delivery routes. Management stated
the IOP and DPS issues existed because, in the past, the area focused on retail
(generating revenue) and not on delivery operations (controlling cost). In addition, area
officials indicated the low retention of the RCA was due to the area not meeting the job
expectations of the RCA. During our review, Pacific Area officials implemented
corrective actions to improve IOP, DPS percentages, and RCA retention.

Additionally, area officials were continuing to address the challenges associated with
the "vital few" performers. Pacific Area officials indicated that, although they were
implementing the SOP, “vital few” units were not performing to standards due to the
challenges associated with hiring and retaining RCA for rural routes and inadequate
monitoring. We recognize area officials’ concerns, and we plan to address these issues
in the capping report to Postal Service Headquarters.

We provided management with a copy of the report and they had no issues with the
findngs. We are making no recommendations in this report to Pacific Area
management.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Rita F. Oliver,
Director, Delivery and Retail, or me at (703) 248-2300.


 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Kathy Ainsworth
    James C. Brouillard
    Steven R. Phelps
Delivery and Retail Standard Operating Procedures -                                                      DR-MA-06-002
 Pacific Area


                                              INTRODUCTION
    Background                      Each day the U.S. Postal Service receives and delivers over
                                    700 million pieces of mail. The Postal Service delivers mail
                                    to 144 million city and rural addresses across a network of
                                    37,000 post offices and retail outlets. To receive and deliver
                                    the mail, the Postal Service has an annual field budget of
                                    approximately $60 billion of which roughly 51 percent is
                                    used for delivery and retail operations. Annual salary and
                                    benefits in fiscal year (FY) 2006 for rural and city carriers
                                    total about $22 billion and approximately $8 billion for
                                    Function 4 (customer service) operations. The Pacific
                                    Area’s FY 2006 budget is $2.5 billion for city delivery
                                    operations, $203 million for rural delivery operations, and
                                    approximately $1 billion for Function 4 operations. The area
                                    is responsible for eight districts and services approximately
                                    1,447 delivery and retail units.1

                                    To ensure the efficient use of resources, the Vice President,
                                    Delivery and Retail, issued a letter on September 30, 2005,
                                    stating that all delivery and retail units will officially
                                    implement Standard Operating Procedures (SOP) beginning
                                    in FY 2006 to establish standard practices for managing all
                                    delivery and retail functions. In November 2005, Postal
                                    Service senior management officials requested audit
                                    assistance from the U.S. Postal Service Office of Inspector
                                    General (OIG) to assess implementation of the SOP and
                                    determine how the area is monitoring the units on the "vital
                                    few"2 list. In response to the request, the OIG began its
                                    nationwide review of the Postal Service’s implementation of
                                    SOP in January 2006.

                                    The SOP consists of procedures to manage city and rural
                                    delivery and Function 4 operations. Postal Service officials
                                    must implement the SOP consistently and establish a
                                    review process to validate that the programs are operable.
                                    Officials must also take appropriate responsibility for
                                    developing plans that will assure that SOP are understood
                                    and functional.

                                    Morning SOP (AMSOP) is an important component of city
                                    delivery SOP. AMSOP standardizes daily city carrier

1
  Some of these units do not have all three components - city delivery, rural delivery, and retail operations.
Therefore, they do not have budgeted workhours for all three operations.
2
  “Vital few” units have the largest opportunity for improvement in city and rural delivery and Function 4 operations
and require specific management actions.

                                                           1
Delivery and Retail Standard Operating Procedures -                                                     DR-MA-06-002
 Pacific Area


                                    functions to align actual workhours to base workhours.
                                    The FY 2006 goal is to certify3 all level 224 and above
                                    Delivery Operations Information System (DOIS) sites by
                                    September 30, 2006.

                                    The Rural Delivery SOP (RDSOP) standardizes daily rural
                                    carrier functions to align actual workhours to standard
                                    workhours. The FY 2006 goal is to certify5 75 percent of
                                    units with 10 or more rural routes and those units identified
                                    as “vital few.”

                                    The Function 4 operations goal is to provide a standardized
                                    and comprehensive structure for development of an
                                    integrated review cycle that continually identifies and
                                    quantifies savings opportunities. In addition, management
                                    should conduct Function 4 Business Reviews6 to identify
                                    units with the largest opportunity for workhour
                                    improvements.

                                    A key component of the SOP is the identification of “vital
                                    few” delivery units. These units have the largest opportunity
                                    for improvement in city and rural delivery and Function 4
                                    operations and require specific management actions.
                                    Postal Service Headquarters provides area officials with the
                                    “vital few” list quarterly based on the performance of the
                                    previous quarter. The area monitors the “vital few” units
                                    and develops action plans to correct their performance
                                    issues in city and rural delivery and Function 4 operations.




3
  District program managers conduct a certification audit of a city delivery unit’s operations to determine if supervisors
are matching workhours to workload, time attendance reports, office configuration, and use of authorized overtime.
Units must achieve a score of 95 or greater to achieve certification.
4
  A level 22 post office is a grade level assigned based on a combination of the responsibilities of the postmaster, the
amount of employees, the size of the facility and various operations performed within each post office.
5
  District program managers conduct a formalized rural management review focusing on improving efficiency in an
evaluated workload environment to more closely align actual to standard hours, reduce overtime, and reduce
auxiliary assistance hours. Units must achieve a score of 85 or greater to achieve certification.
6
  The Function 4 Business Reviews identify and quantify savings opportunities and provide a process to ensure savings
expectations are met. Function 4 teams complete the on-site reviews, and an Integrated Operations Business Plan
Committee provide critical support to ensure attainment of major organizational targets.

                                                           2
Delivery and Retail Standard Operating Procedures -                                                DR-MA-06-002
 Pacific Area



                                  Postal Service Headquarters provided delivery and retail
                                  standardization training to Area Managers of Delivery
                                  Support Programs on September 8 and 9, 2005. In
                                  addition, Postal Service Headquarters issued a
                                  memorandum on October 13, 2005, to each area outlining
                                  the area’s responsibility for training managers on the SOP.
                                  Each area was responsible for training districts by
                                  October 31, 2005. The districts were responsible for
                                  completing training for all levels of management by
                                  November 15, 2005. Further, Postal Service Headquarters
                                  requested that each area establish a review process to
                                  validate whether the SOP were adopted to ensure
                                  consistent implementation. Finally, Postal Service
                                  Headquarters informed area officials that the “vital few” list
                                  requires their attention and monitoring, which includes
                                  action plans to correct performance issues in city and rural
                                  delivery and Function 4 operations.

    Objective, Scope, and         Our overall objective was to assess implementation of
    Methodology                   Delivery and Retail SOP in the Pacific Area. Specifically,
                                  we determined whether Pacific Area officials implemented
                                  SOP in city and rural delivery and Function 4 operations.
                                  The scope of this review focused on whether area officials
                                  implemented the SOP at the area level and excluded review
                                  at selected district and delivery and retail units within the
                                  area. We did not determine the effectiveness of the
                                  implemented SOP at this time, but plan to perform future
                                  reviews and identify opportunities to increase revenue,
                                  reduce costs, and improve customer service.

                                  We visited Postal Service Headquarters and the Pacific
                                  Area to interview management officials and obtain
                                  performance data and reviewed FY 2006 delivery and retail
                                  performance data for week 10.7 We reviewed and analyzed
                                  performance data obtained from Postal Service systems
                                  from October 2005 through May 2006 and discussed the
                                  results with Postal Service officials.8 We relied on data from
                                  these systems to conduct interviews and analysis.
                                  However, we did not directly audit the systems, but



7
  Week 10 performance data was only for that specific week. The weekly performance data roll-up processes began
in week 14, with year-to-date information available beginning with week 19.
8
  During our review timeframe, we analyzed performance data roll-up information for week 19 year-to-date and week
34 year-to-date.

                                                        3
Delivery and Retail Standard Operating Procedures -                                DR-MA-06-002
 Pacific Area



                                discussed with Postal Service officials the relevance of the
                                data to delivery and retail performance during our fieldwork.

                                We conducted this review from January through
                                September 2006 in accordance with the President’s Council
                                on Integrity and Efficiency, Quality Standards for
                                Inspections. We discussed our observations and
                                conclusions with appropriate management officials and
                                included their comments where appropriate.

 Prior Audit Coverage           The OIG has issued 12 audit reports related to delivery and
                                retail operations. While none of these reports are directly
                                related to our objective, they do identify opportunities to
                                improve management of delivery and retail operations. The
                                details of the reports are included in Appendix A.




                                                      4
Delivery and Retail Standard Operating Procedures -                                                  DR-MA-06-002
 Pacific Area


                                                  RESULTS
    Implementation of              Pacific Area officials implemented the SOP in city and rural
    Standard Operating             delivery and Function 4 operations, which included:
    Procedures
                                       •    Training supervisors and managers responsible for
                                            city and rural delivery and Function 4 operations to
                                            allow further implementation by the district and unit
                                            levels.9

                                       •    Developing approved action steps for units identified
                                            as “vital few.”

                                       •    Outlining future plans to complete reviews on the
                                            remaining AMSOP, RDSOP and Function 4 Business
                                            Review locations by September 30, 2006.

                                   Pacific Area officials had certified 46 percent (175 of 377) of
                                   their level 22 and above DOIS sites under AMSOP. During
                                   FY 2006, week 34 year-to-date, the city delivery office hours
                                   (percent to standard) exceeded standard workhours by
                                   102 percent. This was an increase in hours from week 19
                                   year-to-date, when the office hours exceeded the standard
                                   hours by 101 percent. During this same period, the
                                   deliveries per hour percentage exceeded the same period
                                   last year percentage by 2.14 percent. This was a decrease
                                   from week 19 year-to-date, when the deliveries per hour
                                   percentage exceeded the same period last year percentage
                                   by 2.41 percent.10

                                   Further, area officials had certified 84 percent (355 of 421)
                                   of their rural units.11 During FY 2006, week 34 year-to-date,
                                   rural delivery total actual workhours exceeded standard
                                   workhours by 5.10 percent. This was a decrease from week
                                   19 year-to-date, when the actual workhours exceeded the
                                   standard hours by 6.48 percent.

                                   Finally, area officials had conducted Function 4 Business
                                   Reviews at 35 percent (111 of 320) of their planned
                                   locations.12 In addition, during FY 2006, week 34 year-to-
                                   date, Function 4 total earned hours variance was
                                   1.17 million workhours. This was an increase from week 19
9
  The Pacific Area announced the roll-out of city delivery SOP in June 2004. There were several training sessions
outside this initial training. Rural delivery and Function 4 SOP training was conducted in November 2005.
10
   We are planning a future review on city carrier street performance.
11
   The 84 percent represents the "vital few" and units with 10 or more rural routes.
12
   Information as of June 2006.

                                                         5
Delivery and Retail Standard Operating Procedures -                                                   DR-MA-06-002
 Pacific Area


                                   year-to-date when the earned hour variance was 610,239
                                   workhours. During the same period, the window staffing
                                   efficiency for week 34 year-to-date was 82 percent. This
                                   was a decrease from week 19 year-to-date when the
                                   window staffing efficiency was 83 percent.

                                   Based on our review of the city and rural delivery and
                                   Function 4 SOP, the Pacific Area implemented each
                                   component of the SOP. However, additional emphasis
                                   was needed to improve Integrated Operating Plan (IOP),
                                   Delivery Point Sequence (DPS), and rural delivery. (See
                                   Appendix B.) Specifically, area officials did not validate that
                                   plant and delivery unit personnel updated their IOP to
                                   ensure consistent mail availability prior to carrier arrival and
                                   the DPS percentage was below the national goal in
                                   FY 2005.13 In rural delivery, the area indicated they had
                                   difficulty retaining Replacement Carrier Associates (RCA)14
                                   for rural delivery routes.

                                   Management stated the IOP and DPS issues existed
                                   because, in the past, the area focused on retail (generating
                                   revenues) and not on delivery operations (controlling costs).
                                   In addition, area officials indicated the low retention of the
                                   RCA was due to the area not meeting the job expectations
                                   of the RCA. During our review, Pacific Area officials
                                   implemented corrective actions to improve IOP, DPS
                                   percentages, and RCA retention.

                                   Additionally, area officials are continuing to address the
                                   challenges associated with the "vital few" performers.
                                   Pacific Area officials indicated that, although they were
                                   implementing the SOP, “vital few” units were not performing
                                   to standards due to the challenges associated with hiring
                                   and retaining RCA for rural routes and inadequate
                                   monitoring of SOP operations. Management also stated
                                   that “vital few” units were impacted by the area’s past focus
                                   on generating revenue rather than controlling costs. We
                                   recognize area officials’ concerns and we plan to address
                                   these issues in the capping report to Postal Service
                                   Headquarters.




13
   We are planning a future review that will incorporate DPS percentages, to identify opportunities to increase
revenue, reduce costs, and improve customer service.
14
   RCA is a non-career Postal Service employee who either serves as a leave replacement in the absence of a
regular rural carrier or provides service on auxiliary routes. We are planning a future review on RCA.

                                                          6
Delivery and Retail Standard Operating Procedures -                                    DR-MA-06-002
 Pacific Area




 Integrated Operating           Area officials did not validate that plant and delivery unit
 Plan                           personnel updated their IOP to ensure consistent mail
                                availability prior to carrier arrival. The area trained district
                                personnel on the IOP process based on best practices
                                from the Eastern Area and ensured each district had
                                implemented IOP in 2004. However, management stated
                                their recent monitoring of late mail arrivals revealed that
                                some of the IOP had not been updated and were not valid.

                                To address this issue, Pacific Area officials sent a request to
                                all IOP coordinators to review the status and validity of all
                                IOP. The Pacific Area plans to validate that all IOP have
                                been updated by September 2006. Since officials
                                implemented corrective action, we are not making any
                                recommendations.

                                The IOP is used to improve mailflows between the
                                processing plants and delivery units. These plans develop
                                accountability by:

                                    •   Establishing the schedule of dispatches from the
                                        plant to each of its delivery units and identifying the
                                        types of mail (by shape and level of sortation) that
                                        the plant will send on each dispatch.

                                    •   Tracking on a daily basis the arrival of dispatches at
                                        the delivery unit and the types of mail (by shape and
                                        level of sortation) that are on each dispatch.

                                    •   Providing performance cluster managers with a
                                        cross-functional, end-to-end overview of their
                                        operations that will facilitate better operating results.

                                When management does not ensure IOP are valid, mail flow
                                problems can exist which negatively impact delivery service
                                and operational costs.




                                                      7
Delivery and Retail Standard Operating Procedures -                                             DR-MA-06-002
 Pacific Area




 Delivery Point                 The Pacific Area had a 76 percent average DPS score,
 Sequencing                     which was 1 percent below the FY 2005 national average.
                                With the Postal Service continuing to have delivery growth,
                                an increase in DPS letters is essential to decreasing cased
                                letters volume and, therefore, time spent by the carriers in
                                the office. As shown in Table 1, nationally, the DPS
                                percentage is approximately 77 percent, with some areas
                                achieving DPS percentages in the 80s.

                                DPS is the process of getting bar-coded mail into the
                                carrier’s walk sequence so the carrier can deliver it without
                                manual sorting. The goal of DPS is to improve efficiency
                                and thus reduce cost. Increasing the percentage of DPS
                                letters equates to decreasing cased letter volume and time
                                the carriers spend in the office.

                                        Table 1. Average Delivery Point Sequencing
                                                  Percentages for FY 2005

                                                                        Actual DPS%
                                                           AREA          (FY 2005)
                                                      Western                82
                                                      Northeast              82
                                                      Southwest              80
                                                      Southeast              79
                                                      Pacific                76
                                                      Great Lakes            76
                                                      Eastern                75
                                                      New York Metro         72
                                                      Capital Metro          71
                                                         National            77

                                    Source: Information provided by Postal Service Headquarters officials

                                Pacific Area officials implemented corrective action to
                                improve their DPS scores. This included monitoring
                                districts’ Address Management System (AMS) coordinators’
                                attempts to resolve address problems such as those related
                                to high-rise buildings and non-DPS offices. Since officials
                                implemented corrective action, we are not making any
                                recommendations.




                                                      8
Delivery and Retail Standard Operating Procedures -                               DR-MA-06-002
 Pacific Area




 Rural Delivery                 The area had difficulty retaining RCA for rural delivery
 Replacement Carrier            routes. According to the RCA retention tracking data
 Associates                     records, the Pacific Area had a 59 percent retention
                                rate for the RCA compared to the national average of
                                67 percent. For the 24-month period March 2004 through
                                March 2006, the Pacific Area hired 2,160 RCA but retained
                                only 1,284 RCA. Area officials indicated the low retention
                                of the RCA was due to the area not meeting the job
                                expectations of the RCA. Specifically, when employees
                                accepted the RCA position, actual workhours were less than
                                they had expected, which caused them to leave. The
                                inability to retain the RCA for rural routes severely impacts
                                budgeted hours.

                                The area has begun to take steps to improve retention.
                                Officials are conducting exit interviews to better understand
                                the rationale for leaving. They are also directing the RCA to
                                Postal Service units that better meet their work schedule
                                expectations. Since officials implemented corrective action,
                                we are not making any recommendations.




                                                      9
Delivery and Retail Standard Operating Procedures -                                 DR-MA-06-002
 Pacific Area




 "Vital Few" Lists              Area officials were continuing to address the challenges
                                associated with “vital few” units. Pacific Area officials
                                indicated that, although they were implementing the SOP,
                                “vital few” units were not performing to standards due to the
                                challenges associated with hiring and retaining the RCA for
                                rural routes and inadequate monitoring. Management also
                                stated that “vital few” units were impacted by the area’s past
                                focus on generating revenue rather than controlling costs.

                                Pacific Area officials audited “vital few” units and held
                                weekly telecoms to determine the causes of low
                                performance. The area produced several reports on a daily
                                and weekly basis to monitor “vital few” units in city and rural
                                delivery and retail. Officials planned to continue placing
                                emphasis on the SOP with the “vital few” units, which will
                                make the process easier for officials to identify work outside
                                standard time allowances. We recognize area officials’
                                concerns and we plan to address these issues in the
                                capping report to Postal Service Headquarters.




                                                      10
Delivery and Retail Standard Operating Procedures -                             DR-MA-06-002
 Pacific Area



                                           APPENDIX A

                                 PRIOR AUDIT COVERAGE

City Letter Carrier Operations – Greater Indiana District (Report Number DR-AR-06-
003, dated March 28, 2006). The report outlined opportunities to improve the
management of city letter carrier operations in the Greater Indiana District. Delivery
facility supervisors and managers did not adequately match workhours with workload.
We projected the sample results for a total of 68,177 unjustified hours over the 5-month
period from January 1 through May 31, 2005, that were not supported by volume or
workload (total unrecoverable costs of $765,487). We also noted that supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use Managed Service Points (MSP) to monitor city letter carriers’ street
time to correct negative trends, or properly document letter carriers’ unauthorized
overtime occurrences and take corrective action.

AM Standard Operating Procedures - Fiscal Year 2005 Financial Installation Audit
(Report Number FF-AR-06-096, dated March 20, 2006). The report outlined that at
28 of the 36 post offices, stations, and branches where AMSOP are applicable,
management had begun implementation. Of those, 11 had obtained certification and
17 were at various stages of certification. At the time of our work, eight units had not
begun implementation. Several factors contributed to units not being certified. These
factors included issues with the mail arrival agreement with the processing and
distribution plant, posting and following the AMSOP, and Function 4 activities. We
made no recommendations in this report to management.

City Letter Carrier Operations – Detroit District (Report Number DR-AR-06-002, dated
February 8, 2006). The report outlined opportunities to improve the management of city
letter carrier operations in the Detroit District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected the
sample results for a total of 59,208 unjustified hours over the 5-month period from
January 1 through May 31, 2005, that were not supported by volume or workload (total
unrecoverable costs of $723,586). We also noted that supervisors and managers did
not always view DOIS reports in a timely manner to manage operations, consistently
use MSP to monitor city letter carriers’ street time to correct negative trends, or properly
document letter carriers’ unauthorized overtime occurrences and take corrective action.

Address Management Systems – Southwest Area – Rio Grande District (Report
Number DR-AR-06-001, dated January 25, 2006). The report outlined opportunities to
improve the quality of AMS data and put $988,945 of processing and delivery costs over
the next 10 years to better use. Management agreed with our findings and
recommendations and the $988,945 in funds put to better use.




                                                      11
Delivery and Retail Standard Operating Procedures -                             DR-MA-06-002
 Pacific Area


City Letter Carrier Operations – Chicago District (Report Number DR-AR-05-019, dated
September 29, 2005). The report outlined opportunities to improve the management of
city letter carrier operations in the Chicago District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected the
sample results for a total of 78,248 unjustified hours over the 5-month period from
September 1, 2004, through January 31, 2005, that were not supported by volume or
workload (total unrecoverable costs of $2,020,200). We also noted supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use MSP to monitor city letter carriers’ street time to correct negative
trends, or properly document letter carriers’ unauthorized overtime occurrences and
take corrective action.

City Letter Carrier Operations – Santa Ana District (Report Number DR-AR-05-013,
dated August 8, 2005). The report outlined opportunities to improve the management of
city letter carrier operations in the Santa Ana District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected the
sample results for a total of 83,864 unjustified hours over the 5-month period from
May 1 through September 30, 2004, that were not supported by volume or workload
(total unrecoverable costs of $2,127,852). We also noted that supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use MSP to monitor city letter carriers’ street time to correct negative
trends, or properly document letter carriers’ unauthorized overtime occurrences and
take corrective action.

City Letter Carrier Operations – San Diego District (Report Number DR-AR-05- 014,
dated August 8, 2005). The report outlined opportunities to improve the management of
city letter carrier operations in the San Diego District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected the
sample results for a total of 53,835 unjustified hours over the 5-month period from
May 1 through September 30, 2004, that were not supported by volume or workload
(total unrecoverable costs of $1,423,935). We also noted that supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use MSP to monitor city letter carriers’ street time to correct negative
trends, or properly document letter carriers’ unauthorized overtime occurrences and
take corrective action.

City Letter Carrier Operations – Rio Grande District (Report Number DR-AR-05-009,
dated December 2, 2004). The report outlined opportunities to improve management of
city letter carrier operations in the Rio Grande District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected that the
three delivery facilities had 5,318 unjustified hours (at an estimated cost of $193,947)
not supported by volume or workload over a 5-month period. We reported 2,543 of the
unjustified hours – or $92,762 – as unrecoverable costs. We also noted that
supervisors and managers did not effectively use DOIS to manage daily operations and
delivery unit supervisors and managers did not consistently perform street management



                                                      12
Delivery and Retail Standard Operating Procedures -                              DR-MA-06-002
 Pacific Area


or effectively use MSP to monitor city letter carriers’ street time to correct negative
trends.

Function 4 – Customer Service Operations (Report Number DR-AR-04-014, dated
September 30, 2004). The Postal Service can improve the effectiveness and efficiency
of the Function 4 process in meeting or exceeding its program goals of monitoring and
measuring the potential savings of customer service operations. Specifically, Postal
Service managers could improve customer service operations by fully utilizing the
standardized Function 4 reviews and sharing proven practices.

City Letter Carrier Office Preparation in the Dallas District (Report Number DR-AR-04-
005, dated July 26, 2004). The report stated that opportunities exist to improve Dallas
District city letter carrier office preparation operations. Specifically, impediments existed
that adversely affected delivery supervisors/managers’ ability to adequately match
workhours with workload. In addition, city letter carriers’ work activities were not always
appropriate to ensure they departed the delivery unit as scheduled. Further,
supervisors/managers did not use the DOIS to assist in managing office activities.

City Letter Carrier Street Management and Route Inspections in the Fort Worth District
(Report Number DR-AR-04-001, dated June 22, 2004). The report stated that street
management and route inspections were generally efficient and effective at the
XXXXXX and XXXXXXXX Stations. Delivery unit supervisors monitored city delivery
carrier’s street time to conserve workhours by performing at least the minimum number
of required street observations. However, while a route inspection was conducted at
the XXXXXX Station delivery unit, post route adjustment procedures were not followed
to maintain routes at 8 hours.

City Carrier Productivity - Letter Carrier Delays in the Baltimore District (Report Number
TD-AR-03-011, dated July 28, 2003). The report stated that early reporting wasted
carriers’ morning time and exposed the Baltimore District to potential unnecessary
evening overtime costs. The report noted supervisors and managers were not using
DOIS to manage carrier schedules and, consequently, could not use the system to
evaluate carrier scheduling or take corrective action.




                                                      13
Delivery and Retail Standard Operating Procedures -                                             DR-MA-06-002
 Pacific Area



                                                  APPENDIX B

                 PACIFIC AREA'S IMPLEMENTATION OF
       DELIVERY AND RETAIL STANDARD OPERATING PROCEDURES
                                             Pacific Area
                                              Officials             Dates        SOP Areas
                     SOP                    Implemented              SOP            for
                                                                                           15
                     Areas                   Procedures          Implemented   Improvement
                     City Delivery
                     AMSOP                        Yes              06/2004           No
                     Integrated
                     Operations                   Yes              06/2004           No *
                     Delivery Point
                     Sequencing                   Yes              06/2004           No *
                     Collection Point
                     Management                   Yes              06/2004           No
                     Scanning
                     Performance                  Yes              06/2004           No
                     Matching
                     Workhours to
                     Workload                     Yes              06/2004           No
                     Volume Recording             Yes              06/2004           No
                     Route Evaluations
                     and Adjustments              Yes              06/2004           No
                     "Vital Few" Service
                     Improvements                 Yes              06/2004           No
                     Rural Delivery
                     RDSOP                        Yes              11/2005           No *
                     Growth and                                                      No
                     Delivery Point
                     Mgmt                         Yes              6/2004
                     Function 4
                     Function 4
                     Business Review              Yes              11/2005           No
                     RDM WOS                                                         No
                                                  Yes              11/2005

                    *Corrective action taken during the review.

                    Source: Information provided by Postal Service Pacific Area officials




15
     OIG determination based on review results.

                                                            14
